OBRIEN 4-)l
HATFIELD
REESE,PA.
Criminal Defense Attorncp

BayshoreCenter I511West BayStreetISuite330 ITampa,Florida33606
Office:813.228.6989
ILineaen Espanol: 813390.2494

CERTIFICATE OF SERVICE
I, Rachael E. Reese, hereby certify that an original plus 10 copies of the
foregoing Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of
Certiorari of Ademola Adebayo v. United States of America, were sent via Three Day
Service to the United States Supreme Court, and 1 copy was sent via Three Day
Service and E-mail to the following parties listed below, this the 20th day of July
2021:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

Mark J.O'Brien,Esquire IVictoriaE.Hatfidd, Esquire I Rachad E.Reese,EsquireIMichad S.Kennedy,Esquire) Christina L LaMaida,Esquire
e: mjo@markjobrien.comIe: veh@markjobrien.comIe: rer@markjobrien.com/ e: msk@markjobrien.comI e: cll@markjobrien.com
w: markjobrien.com
Statewide and National Criminal Defense
Federal I State I Trials I Appeals I Post-Com'iction Motions
Offices: Tampa I Orlando I Miami

OBRIEN q3\HATFIELD
REESE,P.A.
Criminal Dclcnsc Attorneys

BayshoreCenter I511West BayStreet I Suite330 ] Tampa,Florida33606
Office:813.228.6989
ILlnea en Espanol: 813390.2494

All parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true and correct.
This Certificate is executed on July 20, 2021.

Rachael E. Reese, Esquire
O'BRIEN HATFIELD REESE, P.A.
511 West Bay Street
Suite 330
Tampa, Florida 33606
(813) 228-6989

rer@markjobrien.com
Subscribed and sworn to before me by the said Affiant on the date below
designated:
Date: __

-1\_io_\i_,
__

Norazy~--[seal]

Mark J.O'Brien,Esquire IVictoriaE. Hatfidd, EsquireI Rachad E. Reese,Esquire IMichad S.Kennedy,EsquireIChristina L. LaMaida,Esquire
e: mjo@rnarkjobrien.comIe: veh@markjobrien.comIe: rer@markjobrien.comI e: msk@rnarkjobrien.comIe: cll@markjobrien.com
w: markjobrien.com
Statewide and National Criminal Ddense
Federal I State I Trials IAppeals I Post-Conviction Motions
Offices: Tampa I Orlando IMiami

